TN

C@OCKLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-5

RICHARD BLUMENTHAL, ET AL.,
Petitioners,
v.
DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of August, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE NISKANEN CENTER AS AMICUS CURIAE IN
SUPPORT OF THE PETITION FOR WRIT OF CERTIORARI in the above entitled case. All parties required to be served
have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to
the following:

SEE ATTACHED
To be filed for:
Devin M. Misour M. Patrick Yingling
Ted A. Hages Counsel of Record
REED SMITH LLP REED SMITH LLP
225 Fifth Avenue 10 S. Wacker Drive
Pittsburgh, PA 15222 40th Floor
(412) 288-3131 Chicago, IL 60606
dmisour@reedsmith.com (312) 207-2834
thages@reedsmith.com mpyingling@reedsmith.com

Subscribed and sworn to before me this 7th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

a Q. Lao Ondenwh, Obl

Notary Public Affiant 40007

My Comm. Exp. September 5, 2023

 

 
Service List—Brief of Amicus Curiae The Niskanen Center

Richard Blumenthal, et al. v. Donald J. Trump, No. 20-5

Attorney for Petitioners

Brianne Jenna Gorod

Constitutional Accountability Center
1200 18th Street, NW

Suite 501

Washington, DC 20036
brianne@theusconstitution.org

(202) 296-6889

Attorney for Respondent

Jeffrey B. Wall

Acting Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

(202) 514-2217
